<html>
<title> - CRIME VICTIMS FUND RESCISSION: REAL SAVINGS OR BUDGET GIMMICK?</title>
<body><pre>[Senate Hearing 109-732]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-732
 
     CRIME VICTIMS FUND RESCISSION: REAL SAVINGS OR BUDGET GIMMICK?

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2006

                               __________


       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                    U.S. GOVERNMENT PRINTING OFFICE
27-748                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1

                               WITNESSES
                        Wednesday, March 8, 2006

Hon. Ed Meese, Ronald Reagan Distringuished Fellow in Public 
  Policy, Chairman of the Center for Legal and Judicial Studies, 
  The Heritage Foundation........................................     3
Hon. Paul Corts, Assistant Attorney General for Administration, 
  U.S. Department of Justice.....................................     7
Steve Derene, Executive Director of the National Association for 
  VOCA Assistance Administrators.................................    14
Marsha Kimble, victim of the Oklahoma City Bombing, Victim 
  Advocate, and founder of Families and Survivors United.........    16

                     Alphabetical List of Witnesses

Corts, Hon. Paul:
    Testimony....................................................     7
    Prepared statement...........................................    24
Derene, Steve:
    Testimony....................................................    14
    Prepared statement...........................................    28
Kimble, Marsha:
    Testimony....................................................    16
    Prepared statement...........................................    38
Meese, Hon. Ed:
    Testimony....................................................     3

                                APPENDIX

Three charts submitted for the Record from Senator Coburn........    21
Questions and responses for the Record from Mr. Corts............    41


     CRIME VICTIMS FUND RESCISSION: REAL SAVINGS OR BUDGET GIMMICK?

                              ----------                              


                        WEDNESDAY, MARCH 8, 2006

                                       U.S. Senate,
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senator Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Our hearing will come to order. Thank you 
to all of those in attendance.
    President Ronald Reagan, during the first years of his 
presidency, initiated, with cooperation of Congress, a new 
Federal program called the Crime Victims Fund. The Crime 
Victims Fund operates by the novel idea of making criminals pay 
for the system that they create.
    In the spirit of justice through restitution, fines, fees, 
and forfeitures paid by criminals are used for direct services 
and compensations to victims. And unlike almost every other 
government program, the Crime Victims Fund is self-funding, 
meaning we don't have to ask taxpayers to pay for it.
    At the beginning of each fiscal year, Congress sets a cap 
on how much money can be spent from the fund. During the fiscal 
year, criminal fines, fees, and forfeitures are deposited into 
the fund. If the deposits are more than the congressionally 
mandated capped amount allowed for spending, then the overflow 
is set aside as ``rainy day'' money.
    At the end of the year, when money is distributed to the 
States for victim services and compensation grants, the rainy 
day money from previous windfall years makes up the remainder, 
up to the capped amount.
    Like last year, this year's budget proposal is treating the 
rainy day money in the Crime Victims Fund as a ``surplus'' 
because it remains in the fund throughout the year before being 
used to make up for shortfalls in deposits at the end of the 
year pursuant to the Crime Victims Act.
    OMB is not only proposing to raid the Crime Victims Fund of 
the rainy day money, but also to take out--in advance--what is 
expected to be deposited all year. The proposal would take this 
money--the rainy day fund, plus an advance on what will be 
deposited in 2007--call it surplus and dump it into the General 
Fund of the Treasury.
    That means that when it is time to disburse money to the 
States at the end of the year, the fund will be empty. What 
will happen then? Do we really think that the program is simply 
going to be terminated? Not when congressional, law 
enforcement, and State government support for this program is 
so strong.
    Now, I don't have any problem with the Administration's 
making good faith efforts to shrink government, identify 
programs that are inefficient, failing, or duplicative, make 
the case that these programs should be permanently terminated. 
I think that is a legitimate debate.
    However, that case is not being made here with this 
program. They are not trying to terminate the program. They are 
trying to take away the money that funds the program.
    When OMB makes its case, I am the first one to support them 
and have done so through the many hearings of this 
Subcommittee. We held a hearing last year about a program on 
the terminations list--the Advance Technology Program at the 
Department of Commerce--where the case for termination was 
powerfully made, and I was the first one to agree with OMB's 
decision.
    In this case, I would not agree with terminating this 
program. It is, after all, the ideal type of program that we 
want. The people who create the problems addressed by the 
program are the same ones who pay for it. But I would still 
welcome the debate, if OMB were willing to make a good faith 
effort to shrinkgovernment and had proposed to terminate the 
program.
    What is happening instead is OMB's proposal simply steals 
the money from the program's operating budget for next year but 
has no plans for how to pay for the program for the next year. 
Effectively, the argument about the program's survival gets 
punted to the next fiscal year, when the fund is empty because 
of the budget proposal for this year.
    Some would argue that we are in such a budget crisis this 
year that extreme temporary measures are warranted. It is not 
as if we have suddenly and unexpectedly been stuck with 
unforeseen expenses, and we have to temporarily violate the 
authorizing statute to access any cash we can.
    Despite Congress' tendency to call winter an emergency, 
requiring supplemental LIHEAP funding, or calling a 4-year-old 
war ``emergency spending''--our budget liabilities are well-
known and have been ripening for decades. That is decades to 
prepare for Medicare and Social Security shortfalls, decades to 
tighten our belts and stave off unnecessary earmarks, decades 
to fix our $38 billion-a-year improper payments for which we 
are having a hearing tomorrow.
    So it is not some temporary crisis that would justify 
morphing a program that pays for itself into another deck on 
the Titanic of growing discretionary spending burden. That debt 
burden will rob our children and grandchildren of their future 
quality of life when we could have had a program that paid for 
itself if we exercised a little bit of restraint and honesty 
now.
    If anyone is serious about finding savings at the 
Department of Justice, I have some suggestions. Since 2000, the 
Department of Justice has spent close to $200 million on 
meetings and travel and has had anywhere between $2.6 million 
and $260 million in unspent money parked at the Department each 
year.
    There is also the possibility of payment errors. The 
Department claims that it has assessed all of its programs and 
found no risk of any significant payment errors. I find that 
extremely hard to believe. Unfortunately, an independent 
auditor found several programs that were never even assessed 
properly.
    We will be investigating improper payments in greater 
detail at a hearing I will chair tomorrow. The point is, even 
the most cursory digging yields areas where money is being 
wasted, and that is before engaging in a single policy debate 
about the merits of programs at the Department.
    I may have read this budget proposal wrong. Maybe the 
Administration isn't proposing to raid what it knows is an 
artificial surplus. If so, I hope this hearing will provide 
some answers to the following questions:
    What does the Administration plan to do with the Crime 
Victims Fund at the end of 2007 when the fund is emptied? 
Raiding the account and paying for the program using some 
mechanism other than a self-funding system would be violating 
existing statutes. Does the Administration plan on submitting 
new authorizing language that would allow this and future raids 
into the Fund?
    Given the failure of this plan in last year's budget 
proposal, why is the Administration submitting the rescission 
for a second year in a row? Is there a sincere proposal, or is 
this a budget gimmick to create the appearance of savings? And 
why would the Administration go after a self-funded program 
that has inherent fiscal discipline instead of tackling 
conference spending, unobligated funds, improper payments, or 
other management issues?
    I want to thank our witnesses for being here today. Our 
first panel, we are pleased to have with us former Attorney 
General Ed Meese, who is currently the Ronald Reagan 
Distinguished Fellow in Public Policy at the Heritage 
Foundation.
    On our second panel, we will have the Hon. Paul Corts, who 
is serving as the Current Assistant Attorney General for 
Administration at the Department of Justice.
    On our third panel, we have Steve Derene, Executive 
Director of the National Association for VOCA Assistance 
Administrators, and Marsha Kimble, an Oklahoman and one of the 
many victims of the Oklahoma City bombing and founder of the 
support and advocacy group, ``Families and Survivors United.''
    Thank you all for your time and preparation. Attorney 
General Meese, thank you for being here and please continue 
with your statement.

  TESTIMONY OF THE HON. ED MEESE, RONALD REAGAN DISTINGUISHED 
 FELLOW IN PUBLIC POLICY, CHAIRMAN OF THE CENTER FOR LEGAL AND 
           JUDICIAL STUDIES, THE HERITAGE FOUNDATION

    Mr. Meese. Thank you, Mr. Chairman.
    As you mentioned, I am Ed Meese, formerly an attorney 
general during the period from 1985 to 1988 and currently at 
the Heritage Foundation, where I also serve as chairman of its 
Center for Legal and Judicial Studies.
    I am, like the Chairman, a strong supporter of fiscal 
responsibility and budget reduction. However, I am also very 
much in favor of the continuation of the integrity of the Crime 
Victims Fund.
    For over 30 years, I have been involved in the victims 
movement, in one way or another. In the 1970s, I was in 
California government and then as Director of the Center for 
Criminal Justice Policy and Management at the University of San 
Diego. It was during that time that we began efforts to 
recognize crime victims in that State.
    During President Reagan's time in office, he had a victims 
task force and, as you point out, Mr. Chairman, initiated the 
legislation that led to the Victims of Crime Act and the Crime 
Victims Fund.
    Up until the 1970s and the 1980s, the crime victim, the 
people who suffered the most as a result of criminal activity, 
were the forgotten parties as far as crime was concerned. We 
had all kind of laws relating to arrest, prosecution, 
conviction, and ultimately sentencing of criminals, and we had 
a lot of laws protecting those accused of crime. But the victim 
was essentially forgotten. And that is why the Victims of Crime 
Act as a Federal act was so important.
    As you pointed out, it had the unique feature of letting 
the criminals pay for the costs that are involved in the Act 
and in the Crime Victims Fund. This meant that there would be 
funds available, and one of the things that was the result of 
this legislation was that the funds were used for a variety of 
purposes, all of which had to do with crime victims.
    It included funds for the investigation of child abuse 
crimes. It had the creation, of course, of the Office of 
Victims of Crime in the Department of Justice. It involved--and 
this is one I was particularly interested in--the funding of 
victim/witness counselors, victim/witness assistants in the 
U.S. attorneys offices.
    One of the things I was privileged to do during my time in 
office was to make sure that every U.S. attorneys office had at 
least one of these victim/witness assistants in the office to 
help with the crime victim.
    Crime victims often are confused by the system. They often 
become resentful when they don't know what is going on in what 
they regard as their case. They are often not able even to 
find, with continuances and that sort of thing, the time when 
they are supposed to be in court.
    The victim/witness coordinators has changed all of that and 
made it a much better situation. Likewise, in the field 
divisions of the FBI, victim assistance personnel have been a 
very salutary means of assisting at the early stages of 
investigation when often these victims are most frightened, 
most uncertain of their role.
    So the purposes of the fund, I think no one, to my 
knowledge, has ever argued that the purposes of the fund and 
the uses to which it has been put has not been appropriate and 
that the funds have not been well spent. Congress did two 
things in order to make sure that there were funds on a 
continuing basis.
    They did put caps on the annual allocations of the funds. 
And second, they did provide in very strong language that the 
Fund should be perpetual and that it should be a continuing 
Fund, that it should, indeed, carry over from one fiscal year 
to the next.
    The language in the various legislative history pertaining 
to the Fund from its start has always provided very clearly 
that the sums deposited in the Fund shall remain in the Fund 
and be available for expenditure without fiscal year 
limitation. And that in any one year that funds would be 
carried over to the next.
    I think it is clear from the statute and the legislative 
history, as well as the procedures that the fund has followed 
since its inception, that any attempt to remove monies from the 
fund and use them for unrelated purposes in the general budget 
would be a perversion of the original concept of the fund and 
would violate its integrity.
    As a practical matter, all of the funds that are needed 
are, in fact, necessary in order to perpetuate and make sure 
that adequate funds are there. Over the course of the past 7 
years, in 3 of those years, the monies coming into the fund 
were not equal to the amount that had been provided as caps by 
the Congress. And therefore, the funds from previous years were 
necessary in order to, as you pointed out in your Crime Victims 
Fund ``rainy day'' fund chart there, fill the bucket full for 
those years in which the receipts did not equal the amount that 
had been provided or allocated by the Congress.
    I think it is clear, as a practical matter, that the 
assurance that those funds will be there on a continuing basis 
is necessary for the programs not only in the Federal 
Government, but in the States to continue. I think it is 
important as a country, and as a national government, that we 
continue the commitment we have made to the victims of crime. I 
think it is important to preserve the integrity of the fund, 
particularly since it is not derived from taxpayer funds, but 
from the criminals.
    And I would hate to see this as a precedent of taking a 
designated fund derived from a specific source and then co-
mingling that and turning that into a place in which funds are 
siphoned off in order to support the general budget.
    That is essentially, Mr. Chairman, what I believe we did 
with Social Security, and now we have the mess that we have at 
the present time. I would hate to see the Crime Victims Fund, 
although much smaller in amount, have the same fate as happened 
in the Social Security fund.
    So, as a result, for these reasons, I urge the Subcommittee 
and the Congress to reject any proposal to siphon off monies 
from the Crime Victims Fund or to allow them to be used for 
other purposes than victim assistance.
    This innovation to make criminals pay for the necessary 
assistance to crime victims is an important symbol of the 
fairness of our criminal justice system. To tamper with the 
traditional practice in handling these monies would be a 
serious injury to the concept that underlies the Crime Victims 
Fund as a means of providing the resources necessary for the 
many services included in the Victims of Crime Act.
    That is my statement, Mr. Chairman. I have copies of that 
available for your fellow Members of the Committee, and I would 
be happy to answer any questions you might have.
     Senator Coburn. Thank you.
    I just want to say at the outset, I know it is not the 
Administration's position to do away with this program, and 
that is not what we are trying to say here today. What we are 
trying to say that this is a great program that is working, 
that is self-funded, that the taxpayers aren't having to fund, 
but, in fact, the criminals are funding.
    And the integrity of that program has worked beautifully 
since its inception. It has made tremendous impact in multiple 
people's lives, and I am the first one to lessen our spending 
and to hold us more accountable.
    We have had about 30 hearings in this Subcommittee since 
April of last year, and it is all based on accountability, 
transparency, and results. This one gets results. There is 
transparency to it. And so, the implication is to find out why 
this decision by OMB was made in terms of taking this money and 
to answer the questions.
    I want to applaud you for your work on this when you worked 
for President Reagan. Can you give me a little bit of the 
philosophy behind the decision to set this up? And were there 
any other programs that were set up similarly?
    Mr. Meese. President Reagan commissioned several task 
forces during the time that he was in office, many of them 
having to do with the Department of Justice. But the crime 
victims task force was one of those. And the task force went 
around the country looking at the situation and looking to see 
what might be done, recognizing that most work with victims is 
done at the local level, as is most of the criminal justice 
process handled at the State and local level.
    But it was felt at the time that there was a role for the 
Federal Government, particularly in terms of the victims of 
crimes that were violations of Federal law, as well as to 
provide a catalyst for the States in developing their own 
victims compensation system. And that is really what the 
Federal formula grants to the States actually turn out to do.
    As a result, the philosophy was basically not to let the 
crime victim be the forgotten person, but to make sure that 
there were necessary services. They ranged all the way from 
putting crime victims in touch with insurance agencies, in 
touch with other people who could alleviate the particular loss 
or the particular physical condition or whatever else might 
have been the consequences of the crime that had been committed 
against them.
    It also had to do with, as I mentioned in my comments, 
having people who could guide them through the process, who 
could explain to them what was happening, who could, in some 
cases, make them understand what it would appear to a crime 
victim the interminable delays in justice being effected 
through the court system, and to interpret what it meant for 
them to come to court and to testify.
    Sometimes it involved providing such simple things as child 
care so that a mother who had been a crime victim could appear 
in a court room or appear as part of the investigation, give a 
statement to the police.
    So it ran from fairly mundane activity that was very 
important to the crime victim all the way to very major things 
that were important in terms of assisting prosecutors, 
assisting the police in having victims and witnesses available 
so that they could testify.
    So it has been a very important thing, and I think that the 
fund has been used in a way and the Office of Victims of Crime 
has operated in a way that fully carried out President Reagan's 
idea of what ought to happen and the idea of the Justice 
Department at the time that this was inaugurated.
    Senator Coburn. Is there any thought in your mind, as you 
look at the legislative intent and legislative history, that a 
surplus in this fund is not obligated to go for this fund?
    Mr. Meese. I think just the opposite, Mr. Chairman. I don't 
even like to use the word ``surplus,'' quite frankly, because I 
use the term ``unexpended funds'' because, actually, it was not 
intended to have a surplus, but rather to have those funds 
available for future use.
    And so, I think as the chart that has just been put up here 
shows, it is very clear in each of the years--2000, 2002, 
2005--when this matter was considered by the Congress, the 
legislative history is very clear that it was intended that 
these monies would remain in the fund so that they would not be 
siphoned off for some other purpose.
    Senator Coburn. You will probably receive a couple of other 
questions from us. If you wouldn't mind answering those, I 
would appreciate it. I thank you for your testimony and also 
for your service to our country.
    Mr. Meese. Thank you very much. I will be happy to answer 
any questions the Subcommittee might have. Thank you.
    Senator Coburn. Our next witness is the Hon. Dr. Paul 
Corts. He was sworn in as Assistant Attorney General for 
Administration on November 18, 2002.
    Prior to entering government service, Dr. Corts had a long 
and distinguished career in higher education. He served as the 
president of Palm Beach Atlantic University for 11\1/2\ years. 
He also served as president of Wingate University in North 
Carolina. And he has held administrative and teaching positions 
at Oklahoma Baptist University and Western Kentucky University.
    Dr. Corts, thank you for appearing before us. Your written 
testimony will be made a part of the record, and you are 
recognized.

TESTIMONY OF THE HON. PAUL CORTS,\1\ ASSISTANT ATTORNEY GENERAL 
         FOR ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Corts. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Corts appears in the Appendix on 
page 24.
---------------------------------------------------------------------------
    I appreciate this opportunity to appear before you today to 
discuss the proposed rescission of Crime Victims Fund balances 
and the outlook for the fund in the near future. With me today 
is the department's Deputy Assistant Attorney General/
Controller, Lee Lofthus.
    The Crime Victims Fund is a major funding source for victim 
services across the Nation, and the Department is fully 
committed to that, as you have indicated. We are also deeply 
committed to sound and responsible budgeting.
    To briefly provide a budget context for the Crime Victims 
Fund balance rescission proposal, let me say that the fiscal 
year 2007 President's budget requests $20.8 billion in direct 
discretionary funds for the Department of Justice, including 
over $1 billion in enhancements that are designed to help us 
protect Americans from terrorism and crime.
    I am pleased that our budget contains these resource 
enhancements, and yet I am acutely aware that we are a Nation 
at war, and we are facing significant demands on our resources. 
Accordingly, the Department's budget also contains offsets.
    By ``offsets,'' I mean that we are proposing to help cover 
a portion of our fiscal year 2007 budget requirements through 
funds we can save or recoup in other areas. These offsets 
reduce the demand the Department makes on the appropriators, 
the Treasury, and ultimately the taxpayers for new dollars.
    Where certain programs have accumulated significant 
balances over the years, our offsets include rescissions of 
such prior year balances, including the rescission proposed of 
$1.255 billion from the Crime Victims Fund. The Crime Victims 
Fund was established by the Victims of Crime Act in 1984. This 
fund provides resources for a wide variety of victim services 
across the Nation.
    Rather than being financed with tax revenues, the fund 
draws on the payments of offenders convicted of Federal crimes. 
In plain terms, receipts deposited from convicted offenders are 
used to support victim programs authorized by the Victims of 
Crime Act.
    Now, in recent years, the Congress has proposed and 
authorized a cap in the amount that can be spent from the Crime 
Victims Fund for victims programs. Most recently, the cap has 
been at $625 million, and it has been there for several years.
    Balances or deposits in excess of the cap roll over from 
year to year. Significant rollover balances have existed in the 
fund since the year 2000, creating what can be characterized as 
a perpetual float in this account, and it is now in excess of a 
billion dollars.
    This float is not required to fund the enacted level of 
victims programs, nor is it money that could be made available, 
as you have indicated, for any other appropriations use. The 
President's budget proposes, therefore, to rescind these unused 
funds.
    The perpetual float in the fund results in two 
consequences. First, the excess balances are precluded from 
being available for other programs that could benefit the 
Nation. Second, the balances have been used for temporary 
budget score-keeping schemes that mask true discretionary 
budget needs.
    Accordingly, the President's fiscal year 2007 budget 
proposes to rescind and permanently cancel the excess balance 
in the Crime Victims Fund, returning the funds to the general 
fund of the Treasury. So, in plain terms, a future $19 billion 
budget would be presented as a $19 billion budget. Thus, the 
rationale for rescinding the balance of the fund is that it is 
a more straightforward approach to budgeting.
    Assuming the rescission of the fund balance is enacted, 
crime victim services in fiscal year 2007 and beyond will 
continue to be funded from criminal fines and penalties. We 
anticipate the receipts can be maintained at a level sufficient 
to support the currently enacted victim program levels as 
capped by Congress.
    So, in closing, we are committed to ensuring the solvency 
of the Crime Victims Fund and adequate funding for the victims 
programs. This proposal does not drain the fund of its victim 
assistance resources. We are also committed to transparent 
budgeting and wise use of available resources.
    Mr. Chairman, this concludes my prepared statement, and we 
would be pleased to answer any questions that you or other 
Members might have. And with your permission, Mr. Chairman, I 
would like to ask that Lee Lofthus join me here at the table 
for the question period.
    Senator Coburn. That is fine. She is more than welcome to.
    Mr. Corts. Thank you.
    Senator Coburn. So your testimony says that the excess 
money will be rescinded, and that money will actually be spent 
on something outside the statutory requirements of the Victims 
of Crime Act?
    Mr. Corts. If Congress chooses to adopt the President's 
budget, that would take that money and return it to the General 
Fund of the Treasury.
    Senator Coburn. So, in essence, it will be money that 
criminals have paid for victims of crime that will not be spent 
on victims of crime?
    Mr. Corts. Yes, sir. It would be collected money that would 
go to the General Fund of the Treasury.
    Senator Coburn. OK. On page 714 of the appendix of the 
President's 2007 budget shows that the Administration's own 
estimates that 2006 and 2007 deposits will fall short of the 
cap. Where are we going to get the money to get the levels up 
to the cap?
    Mr. Corts. Well, we start with sufficient money. So we 
start with $625 million, which is the cap.
    Senator Coburn. That is for this year.
    Mr. Corts. So, in this year, if you start the year with 
$625 million, which is the amount that you are capped to spend, 
then everything that you collect this year is in excess of 
that, and it becomes the new cushion or the new rainy day fund 
because it will be there to fund in 2007.
    Senator Coburn. But your own estimates state that you 
expect that to be less than $625 million this year, which would 
be the cap for 2007. So where will the difference be made up?
    Mr. Corts. Right. And those estimates are estimates that 
are made at the time that the budget was being put together, 
and they stay fluid. And I think our estimates at this time 
would be that we will achieve, based on collections thus far, 
that we will achieve the $625 million.
    Senator Coburn. So what happens if you are wrong? What 
happens if $400 million, like in what year was it--2003--we had 
$400 million come into the fund? What happens if only $400 
million comes into the fund next year?
    Mr. Corts. Then we would, in essence, have a $400 million 
rainy day fund as we begin 2007.
    Senator Coburn. OK. You would have $400 million fund. So, 
in 2008, if you are less, if you are $400 million again?
    Mr. Corts. Then we----
    Senator Coburn. You are out of money?
    Mr. Corts. Then we would be down to starting the year at an 
even, and Congress would have plenty of time to adjust that in 
that time period. So the point is that you do have a rainy day 
fund, and there is a contingency available.
    Senator Coburn. Is there any proposal in the 
Administration's rescission that if, in fact, there is a 
shortfall in 2007-2008 that the money comes back to the fund?
    Mr. Corts. No. Not that I am aware of are there any 
proposals of that.
    Senator Coburn. So if, in fact, we are wrong and the fund 
ends up short 3 years in a row and you end up not being able to 
fund 1 year, there is nothing in this proposal that would say 
that the $1.2 billion that you took from the Victims of Crime 
Act fund will be repaid to bring them up to the level of the 
cap to apply for the very services that the fund was set up for 
in the first place?
    Mr. Corts. This is a 1-year, one-time, relates to the 2007 
current budget situation.
    Senator Coburn. Oh, I understand that. But it is also 
taking $1.2 billion of money that is supposed to be directed 
for the victims of crime and saying we are not going to spend 
it on the victims of crime. We are going to use it to run other 
parts of the Federal Government.
    Mr. Corts. As I explained, the----
    Senator Coburn. I am not trying to give you a hard time 
personally. I know you are up here defending a budgetary 
decision you didn't make. OK?
    Mr. Corts. Right.
    Senator Coburn. And I want the record to make that clear. 
You did not make that. But there is a certainty that there will 
be no money left in the fund at the end of 2008?
    Mr. Corts. No, there is not that certainty. All of our 
projections are that, again, if you start the year with a $625 
million surplus, and you are collecting all of that year, we 
currently estimate we will collect at least $625 million. So we 
believe that we will be starting the year with another $625 
million rainy day fund when you start in 2008. And all of our 
projections are that we are going to be able to maintain that.
    Now, as you say, if we fall a little bit short, we do have 
that amount of cushion. And I want to be sure that is 
understood because I hear people speaking as though there is no 
cushion. There is a cushion, the $625 million----
    Senator Coburn. I understand we are starting with a certain 
amount of money. We are going to spend it out. We are going to 
collect money that year. What I don't understand is what the 
Administration's position is if you are wrong and we end up 
with a shortfall at the end of 2008, and we don't come up to 
$625 million. What do we do then?
    Mr. Corts. Well, if you look at the historical collections, 
that would be highly unusual that you could drain it in 2 
years. There isn't anything historically to show that you would 
drain it in 2 years.
    Senator Coburn. OK. But I would tell you for 2001, 2002, 
2003, 2004, 2005, we had less than we had in the year 2000. So 
we have 5 years of history of less income than we had in terms 
of the peak.
    And nobody has given an analysis and there is not one in 
the budget documents to explain the analysis that would give 
you the confidence. As a matter of fact, it's the opposite. 
When this was submitted, you thought it would come in less.
    And so, I have two comments. First, I don't believe you can 
run this program without a big cushion because I think 
statutorily we are obligated to make sure these funds are out 
there for the victims of crime.
    Second, what else in DOJ's budget is now revised in terms 
of estimates other than this, so that when we look at the rest 
of DOJ's budget--which is not this Subcommittee's prerogative--
but when we look at the rest of it, are there other areas where 
you have changed budget assessments and background on the 
budget?
    Mr. Corts. Well, the budget is made a good deal in advance 
of the actual time, and certainly these issues are things that 
just are dynamic, and they are changing. So, yes, we monitor 
those things. There are a number of those that we would be 
monitoring.
    Senator Coburn. On your budget document that is submitted, 
the balance at the end of the year in 2007 is zero. Your own 
budget documents say that there will be zero in this fund at 
the end of the year of 2007.
    Mr. Corts. That zero probably would have been better 
represented as a ``dash.'' That is an unknown. And 
unfortunately, a zero was used to indicate an unknown instead 
of a dash, which probably would have been the more appropriate 
way to have identified that. And I am sorry. I apologize for 
that.
    Senator Coburn. But, in fact, based on the numbers, based 
on what is in it to begin with, what is estimated by your 
collections, what is estimated to be paid out, what is 
estimated to be taken out, you all show a zero balance?
    Mr. Corts. Again, I apologize for that. It would have been 
better described as a dash. It was intended to represent an 
unknown because we know we are going to start with $625 
million, which is the cap, and we know we are going to 
replenish it.
    Our current estimates are that we will replenish it with at 
least $625 million. We have got a cap of spending, $625 
million. So we will actually start--we know this now. We didn't 
know it at the time that the budget was submitted.
    Senator Coburn. OK. All right.
    Mr. Corts. So I issue that as a clarification because I 
agree with you, if I were looking at that and I didn't know the 
underlying information, you come to that conclusion. And it is 
not the right conclusion, and I apologize. It really would have 
been better to have had a note there that indicated this is an 
unknown number.
    Senator Coburn. Well, could I ask you to do this? Resubmit 
those numbers to this Subcommittee so we can see what the real 
numbers are. Because when you add the adds and subtract the 
subtracts, you end up with zero. Whether it is a dash or not, 
it is still nothing there.
    Mr. Corts. Partly because you started with a zero, and you 
don't start with a zero, you actually start with the $625 
million.
    Senator Coburn. That is right. And so, if you would please 
refer us a corrected budget sheet on that?
    Mr. Corts. We will do that. Mr. Chairman, I would also like 
to point out another thing that has us believing that the 
collections will actually go up.
    Not only current indications of what we are collecting so 
far, but we have actually added about 28 positions, I believe, 
were funded to the U.S. attorneys this year, with a little over 
$2 million for additional assistance with trying to collect 
these funds. So we are optimistic that we are going to see the 
collections continue to increase.
    Senator Coburn. Well, first of all, I hope you are. We want 
that. We want this type of program--philosophically, the way to 
run a government program is the people that caused the problem 
ought to be paying for it. And this is an ideal program that I 
don't want to see go away because it matches compassion with 
conservative fiscal policy.
    And the thing that worries me about this is that we have 
billions of dollars everywhere else in the Administration that 
is truly wasteful, and this is a program that isn't. And we are 
taking $1.255 billion out of it and saying we are not going to 
spend it.
    And so, let me ask you one other question. If, in fact, you 
are really good at collecting a whole lot more money and you 
are back up to the $800 million to a billion dollars in 
collections, 2 years from now, are you all going to come and 
rescind more?
    Mr. Corts. Well, it is very possible that the rainy day 
fund or the excess will continue to increase, and it will have 
an opportunity to build up again. This increase occurred very 
largely, as your own chart indicates, in the year of 1999 with 
an unusually large spike up in collections.
    Otherwise, if you look at that, it has pretty well evened 
itself out and really what I think was the basis on which the 
cap number was determined. And the cap was used for a very good 
budgeting concept of kind of leveling this out so that victim 
services could have an anticipated amount that they could kind 
of know would be there.
    And that is what we are saying we want to continue. And we 
agree on that. We want very much to continue that, and we 
believe that the budget, the way we have proposed it, does 
that.
    It simply takes these excess funds that essentially are 
sitting there and, as I said in my testimony, are not available 
for use and are not being used in a time when the country has 
significant financial needs because of a whole series of crises 
and circumstances that we are confronted today, it is using it.
    Senator Coburn. I preach that song all the time. The 
question I ask is what is actually happening to the money? 
Where is the money? Where is the excess money?
    Mr. Corts. The money would be in the Treasury.
    Senator Coburn. OK. So the money is in the Treasury.
    Mr. Corts. But not able to be used.
    Senator Coburn. Well, it is reducing the borrowings of the 
Federal Government. So it is being used. Every trust fund out 
there, every fund out there is being used right now. And it is 
already being calculated.
    So this is really a double gain because they are 
recognizing assets in the Treasury, and they are also not 
borrowing additional money because they got the assets in the 
Treasury. And then you are getting a rescission off of it. So 
my first background is that I was an accountant, and I can 
measure numbers.
    Well, listen, my whole point is that there is a statutory 
problem with what you all are doing. I am not sure legally you 
can rescind that money.
    The other question that hadn't been raised is should this 
fund be increased, the cap? Are we adequately meeting the needs 
of victims today with the cap set at where it is? And I think 
that is a legitimate question that should be raised. Do you 
have any comments on that?
    Mr. Corts. I don't with respect to that. I didn't come 
prepared to speak to that.
    Senator Coburn. Well, I will have a couple of other 
questions for you and your staff if you would not mind 
answering.
    I want the record to note that you are defending a decision 
you did not make and that you have done a good job in doing so 
and that you will, in fact, submit a revised budget sheet 
showing what is actually going to happen to this money and your 
revised projections on what you think the collections are going 
to be.
    And if you will do that, I would be more than satisfied 
with that proposal.
    Mr. Corts. Yes, sir. Thank you, Mr. Chairman.
    Senator Coburn. And I will, for the record, note that I am 
going to work hard to make sure this money is not rescinded or 
the statutes changed that allows it.
    Mr. Corts. Thank you.
    Senator Coburn. Thank you very much.
    Our next witnesses are Steve Derene, Executive Director of 
the National Association for VOCA Assistance Administrators. 
Since 2001, Mr. Derene has been representing State agencies 
that administer State VOCA victim assistance grants by serving 
at the National Association for VOCA Assistance Administrators.
    Throughout his career, Mr. Derene has served as Director of 
Research and Information for the Wisconsin Department of 
Justice, director of the Wisconsin Victims/Witness Assistance 
Program, and the Wisconsin VOCA Assistance Administrator. He is 
the 2005 recipient of the National Crime Victim Services Award.
    Also it gives me great pleasure to present to you Marsha 
Kimble. She became a victim advocate after the murder of her 
daughter, Frankie Merrell, in the Oklahoma City bombing. In 
October 1995, Ms. Kimble founded Families and Survivors United, 
a support and advocacy group, and authored a book of 81 first-
person accounts of survivors and families of those who lost 
their lives in the Oklahoma City bombing, entitled ``Forever 
Changed.''
    I welcome you both. Your complete testimony will be made a 
part of the record, and you are recognized first, Mr. Derene.

    TESTIMONY OF STEVE DERENE,\1\ EXECUTIVE DIRECTOR OF THE 
    NATIONAL ASSOCIATION FOR VOCA ASSISTANCE ADMINISTRATORS

    Mr. Derene. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Derene appears in the Appendix on 
page 28.
---------------------------------------------------------------------------
    As you said, I represent the State agencies that administer 
the VOCA formula grants, which really is the largest slice of 
the Crime Victims Fund uses. Those funds go to support some 
4,400 community-based and public agencies that provide direct 
services to victims of crime. About 4 million victims every 
year receive services directly through this program.
    One of the things that I would like to express on behalf of 
a very broad coalition of not only victim advocate 
organizations, but criminal justice organizations, public 
officials, is our appreciation for holding this hearing and for 
Congress's steadfast support. Ever since VOCA was enacted in 
1984, there has been a real bipartisan, almost universal 
support for VOCA.
    And although it has changed, this really has been the first 
time that, as General Meese said, the integrity of the fund 
itself, the basic concept, the philosophy has really been 
challenged. And I think that is one reason that for the first 
time there is such a broad-based coalition that has formed to 
save the fund.
    Because VOCA really represents more than the dollars. And I 
know we are here to talk about budgets and funding. But I think 
what happened in 1984 was that the enactment of VOCA, while it 
is an important source of funding, really represented a 
commitment and an understanding that Congress and the 
Administration has universally adopted since then.
    And I think it was that threat to not only the dollars, but 
to the commitment. Victims are not people who ask to be 
victims. They are brought in to cooperate with law enforcement, 
to provide social services. They incur many emotional and 
financial costs. And this was really a statement that the 
Federal Government made that we understand and will do what we 
can to support victims of crime.
    So I think the reaction that I have seen, and it is 
unanimous--I mean it goes from all of the victim advocacy 
groups, criminal justice agencies, all attorneys general, 56 
attorneys general oppose the rescission. The U.S. Catholic 
Conference, the National Grange have all rallied around saving 
the fund. Not because they necessarily get dollars, but because 
they understand the significance.
    So I think that really is at the heart of the issue here. 
And one reason that it is at the heart of the issue, frankly--I 
was listening to the exchange, and I have lived with VOCA and 
the Crime Victims Fund. I have done studies of it. I am 
familiar with the numbers, and I got lost.
    I mean, when you were talking about what is there, when I 
look at the chart you have here, and I see zero dollars, and 
you do the calculation. As you said, you are the accountant, I 
am not. No way can you avoid the fact that at the end of 2007, 
the fund will be empty.
    And I will go back to October 12, 1984, when President 
Reagan signed the act into law. That fund was empty. And the 
Department of Justice had to wait a year. They didn't know how 
much would be in the fund. So they had to wait one full year to 
find out how much would be in the fund because that is the only 
way they knew how to allocate the money in the fund.
    And so, ever since then, and I think this is where some of 
the confusion arises, the money collected in one year was 
obligated the following year. And that has been happening ever 
since.
    And so, when you take out their estimate of $1.255 billion, 
that not only represents the rainy day fund, the sums that have 
accumulated because Congress delayed the obligations, but the 
amount that will be collected in 2007. And you add those 
numbers together, and you end up with zero.
    So the question becomes not what happens in 2007. What we 
are left wondering is what happens in 2008? Because you start 
out the year, and if you understand the formula, you have to 
have a known sum certain at the beginning of the fiscal year in 
order to make grants. You can't wait for it to dribble in. You 
can't allocate. Five percent of zero is zero.
    And so, our problem is we have never heard a response to 
where does the money come in 2008, and the $625 million that I 
heard is not a buffer that will be available at the beginning 
of 2008--2008 will be zero, and there will be no money. So that 
is the disconnect. That is where some of the numbers get 
jumbled up and the years get jumbled up.
    But the reality is, as you well showed here, the amount 
available at the end of 2007 or at the beginning of 2008 will 
be zero. And even if you wait for that money to accumulate, 
that is an entire year that money will not be available to 
support important services.
    I also heard discussion about this being some kind of a 
budget gimmick, and that to me sounds like an argument between 
the Congress and how they score and the Administration and 
transparency in those numbers. And that may be correct. It may 
not be correct. I don't know.
    But what I do know is taking that money out of the Fund and 
putting it into the General Fund of the Treasury penalizes 
victims for that difference of opinion among accountants. And 
if it weren't for the cap, all that money by law would already 
have been out there, would be used, would be serving victims. 
And given the nature of victimization, victim services delayed 
is victim services denied.
    But the field has pretty much gone along with the concept 
of stabilizing funding over time. We have looked at the 
fluctuations. It is a way of managing it. It is a way of 
providing some stability.
    And so, the threat, the reason that many people felt 
threatened when this was first proposed was for the very reason 
that we are seeing today, that somebody would come around and 
say, ``Oh, look at all of that money. Let us take it away.''
    And that is what is happening. And that was money that 
Congress has repeatedly pledged would be used for victim 
services.
    Senator Coburn. That is what is proposed to be happening.
    Mr. Derene. That is what proposed to be, yes. But it is 
that proposal which really not only is scary should it succeed, 
but it is having profound effect now as it is being proposed.
    I see among the members of my association, they get scared. 
And so, when they try to manage the money for the best ability 
to provide services, they have been holding back money in fear 
that this will disappear, or they are not giving grants to the 
extent that they would.
    And there was an article I saw this morning--I am from 
Madison, Wisconsin--in the local paper about the rape crisis 
center there fearful of this very proposal and worried about 
what they are going to do, how much staff they would have to 
cut should this happen.
    So people in the field hear this, and they are trying to 
anticipate what is going to happen. And so, even the threat has 
profound effects on the ability and the stability of services.
    And if we were to make a suggestion as to how to solve the 
problems, how to solve this excess that I hear about, excess 
which Congress has used 50 percent of the time, excess that the 
Administration says they will need in the next 2 fiscal years--
to me, that is not being unused. That is using it for the 
purpose that Congress put the money aside for. But if that is 
an issue, then my answer is don't take it away from victims. Do 
what the statute says. Give it to victims. You don't need a 
cap.
    The cap does not appropriate money. The cap delays the 
ability to obligate that money. If there was no cap, as I said, 
that money would be out there. So if this is a problem, if 
there is some kind of accounting issue here, give the money 
back to victims. That is where Congress said it should go. 
Thank you.
    Senator Coburn. Ms. Kimble.

  TESTIMONY OF MARSHA KIMBLE,\1\ VICTIM OF THE OKLAHOMA CITY 
BOMBING, VICTIM ADVOCATE, AND FOUNDER OF FAMILIES AND SURVIVORS 
                             UNITED

    Ms. Kimble. Mr. Chairman, my name is Marsha Kimble. I lost 
my daughter, Frankie Merrell, in the Oklahoma City bombing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kimble appears in the Appendix on 
page 38.
---------------------------------------------------------------------------
    I would like to share with you today my personal experience 
associated with the bombing and how VOCA assisted the families 
of Oklahoma City. Finally, I would like to discuss how VOCA 
funding is vital in serving 4.2 million crime victims each 
year.
    On April 18, 1995, the day before the Oklahoma City 
bombing, I was not familiar with the criminal justice system. I 
had no comprehension of the consequences of having a daughter 
murdered or a 2-year-old granddaughter crying for her mother 
who never returned. I did not know the psychological impact 
that such a crime would have on my family or how it still 
impacts my life almost 11 years later.
    I did not know about the victim services or where people 
that had been impacted by crime turned for help. That was not 
my life. On April 19, 1995, I was confronted with the fragility 
of life and the realization that everything can change in a 
split second.
    My daughter, Frankie Merrell, worked for the Federal 
Employees Credit Union, located on the third floor of the 
Alfred P. Murrah Building in downtown Oklahoma City. I was at 
home, approximately 10 miles from where my daughter worked, 
taking care of my granddaughter.
    At 9:02 a.m., there was an explosion that shook my home 
approximately 10 miles away from where my daughter worked. 
Little did I know, from that moment on, how much my life would 
change. The families were sent to a family assistance center in 
the First Christian Church in downtown Oklahoma City, and I am 
just going to tell you about two experiences that I had.
    I had been over at St. Anthony's Hospital, and they had 
posted pages upon the wall, listing victims' names and where 
they had been taken for treatment. I kept searching for my 
daughter's name, calling all hospitals trying to find her. We 
were told to go over to the First Christian Church, and there 
would be counselors there for us.
    When I walked into the First Christian Church, what I found 
were about eight tables lying end to end. Sitting behind the 
tables were funeral directors with badges on. I wasn't 
prepared. This wasn't an airplane disaster. I still had hope. 
Since that time, there have been training programs for funeral 
directors to teach how to treat victims with dignity and 
respect.
    It took 5 days to be notified about my daughter. The world 
that I knew no longer existed. Our family was broken, and we 
were in deep despair. The feeling of powerless and hopelessness 
was overwhelming.
    Weeks later, I was made aware of victim services. Families, 
survivors, and rescue workers were in desperate need of help. 
The Office for Victims of Crime stepped in and started covering 
bombing-related expenses, which included identifying victims, 
providing us with referral information for medical expenses, 
psychological counseling, and compensation for lost wages 
incurred due to the bombing.
    Oklahoma victims used $114,679 in State VOCA funds, plus 
$98,948 in State VOCA compensation funds. These funds came from 
fines and fees imposed upon Federal criminal offenders. They 
were not derived from taxpayers dollars.
    The trials for Tim McVeigh and Terry Nichols were moved to 
Denver, Colorado. For most victims and family members, this 
meant another economic hardship, which most could not afford. 
The Office of Victims of Crime funded initiatives to help us. 
More than $1.7 million VOCA was used to provide victim services 
and support throughout the two Federal trials in Colorado.
    These funds provided us with information about the status 
of the criminal investigation, the prosecution of the criminal 
case against the suspects, and facilitated victim participation 
in the criminal case through trial attendance, and prepared 
victims to present impact statements during sentencing. 
Families and survivors were also provided a safe haven near the 
Federal courthouse in Denver, and we were offered mental health 
and spiritual counseling during that time.
    $280,000 in VOCA funds enabled some victims' families and 
survivors to go to Denver one week during the trial. It was a 
lottery system. Not everyone got to go. It wasn't perfect, but 
it was the only assistance that we had.
    After my personal experience with loss, I was compelled to 
become a victim advocate. The stigma around victimization has 
the same effect, no matter what class you are in. The trauma 
faced by victims is the same for the served victims and under 
served. I benefitted from VOCA as well as any other sector of 
the population.
    In Oklahoma, a large part of VOCA funds went to train 
judges and prosecutors on how to treat victims with dignity and 
respect. These funds are used to fund case managers and victim 
advocate positions in State attorneys offices. When properly 
trained, these personnel are available for victims as they go 
through the criminal justice process.
    No person, regardless of life choices or situation, should 
experience harmful or limited victim services. Each victim 
should be provided with the opportunity to access services 
based on their individual needs. Victims should not be further 
traumatized by a system that is neither prepared nor open to 
the needs due to the lack of funding.
    There is seldom dialogue regarding the impact crimes have 
on the lives of victims or of surviving family members impacted 
by crime. Too often those who survive are thought of as a 
separate and less critical element of the crime and are left to 
deal with long-lasting impacts without proper assistance.
    We live by laws in this country so that, ideally, no one 
will ever have to know what it is like to be a victim of crime. 
Crimes such as were committed against my family are intolerable 
in any society that calls itself not only free, but civilized. 
For Congress to consider reducing money used to help victims is 
not an option. This critical fund is a life line to many who 
might not otherwise survive.
    Opinions may be colored by religion, parental values, or 
popular opinion. For me, finding the solution is a process. Not 
a simple learning process, but a searching of one's soul. It is 
a journey.
    In closing, I would like to pose a couple of questions. How 
often are you obligated to make decisions associated with 
issues that you have never experienced firsthand? Is it easy to 
express your views? Are there times when the responses to these 
issues aren't clear? I ask, with this money, whom do we serve? 
Thank you.
    Senator Coburn. Thank you for your testimony. I know that 
was difficult for you. I appreciate you making the trip here 
and giving your testimony.
    I want to correct--Congress is not considering this. This 
is OMB that is considering this. And that is why we are having 
this hearing is to put a stop to it.
    Most of my questions you both answered in your testimony, 
so it is making it difficult. We have talked about perhaps 
everything else. What about increasing or raising the cap? What 
is your comments on that, Mr. Derene?
    Mr. Derene. I think that it is an appropriate step to 
consider at this time. I think the cap has served a purpose. I 
am perhaps in the minority in that because I think as a State 
administrator, I saw that as a way of managing the funding 
level, as Congress intended, with the caveat that the money 
stay in the fund for future victim services.
    I think the threat of this rescission itself causes us to 
think is that a problem? I think there are significant unmet 
needs. We know that there are many unmet needs, additional 
victim populations, additional types of services.
    And I know that one of the reasons these are formula grants 
is that each State has different dynamics, different needs. And 
I think by allowing the States a greater amount of money, and I 
would suggest a greater amount of time, you can accomplish both 
the congressional intend to stabilize the funding and to allow 
States to meet their own needs.
    I think an increase of the cap as a one-time step up to a 
billion dollars would help meet the needs and would yet leave 
enough in the fund to help buffer some of the fluctuations form 
year to year.
    Senator Coburn. You are saying raise it up one year?
    Mr. Derene. I would say one year, and that would enable 
enough money to remain in the fund. It would sort of draw down 
the attractiveness of this rescission. It would also allow the 
States to address the needs that they have in their States and 
yet would be consistent with the Congress' desire to have a 
stable level of funding.
    Senator Coburn. Ms. Kimble, let us assume that I will win 
this battle, which I intend to. Assuming that the funding 
remains the same, does it matter to you that the source of this 
money comes from criminals? What is the importance of 
restitution?
    Ms. Kimble. I think it is extremely important to victims 
that criminals pay for their acts. I think it is extremely 
important to victims that their funding comes from the fines 
imposed upon them. It is critical.
    Senator Coburn. It is part of the healing process, isn't 
it?
    Ms. Kimble. It absolutely is.
    Senator Coburn. Yes.
    Well, I want to thank each of you for being here, as well 
as our other witnesses. We heard answers from the Department of 
Justice today. We are going to get the answers back. We will 
see what the revised column looks like, and then we will work 
with that. And we will carry this information to the Budget 
Committee and also the Appropriations Committee and let them 
look at it, and then we will work real hard to make sure that 
this is maintained.
    You may each receive some additional questions from the 
Committee, as we want to round out and make sure we have as 
complete a package as we can. I want to thank you for your 
testimony, and God bless each of you.
    The hearing is adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7749.001

[GRAPHIC] [TIFF OMITTED] T7749.002

[GRAPHIC] [TIFF OMITTED] T7749.003

[GRAPHIC] [TIFF OMITTED] T7749.004

[GRAPHIC] [TIFF OMITTED] T7749.005

[GRAPHIC] [TIFF OMITTED] T7749.006

[GRAPHIC] [TIFF OMITTED] T7749.007

[GRAPHIC] [TIFF OMITTED] T7749.008

[GRAPHIC] [TIFF OMITTED] T7749.009

[GRAPHIC] [TIFF OMITTED] T7749.010

[GRAPHIC] [TIFF OMITTED] T7749.011

[GRAPHIC] [TIFF OMITTED] T7749.012

[GRAPHIC] [TIFF OMITTED] T7749.013

[GRAPHIC] [TIFF OMITTED] T7749.014

[GRAPHIC] [TIFF OMITTED] T7749.015

[GRAPHIC] [TIFF OMITTED] T7749.016

[GRAPHIC] [TIFF OMITTED] T7749.017

[GRAPHIC] [TIFF OMITTED] T7749.018

[GRAPHIC] [TIFF OMITTED] T7749.019

[GRAPHIC] [TIFF OMITTED] T7749.020

[GRAPHIC] [TIFF OMITTED] T7749.021

[GRAPHIC] [TIFF OMITTED] T7749.022

                                 <all>

</pre></body></html>
